No. _________
IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
THOMAS LANE, Petitioner,
v.
STATE OF ALABAMA, Respondent.
PROOF OF SERVICE
I, John W. Dalton, a member of the Bar of this Court, do declare that on
this date, April 19, 2021, as required by Supreme Court Rule 29, a copy of this
Motion to Proceed In Forma Pauperis and Petition for a Writ of Certiorari in the
above-titled case was mailed, first-class postage prepaid to:
Steve Marshall
Office of the Attorney General
501 Washington Avenue
Montgomery, AL 36104
All parties required to be served have been served.
Respectfully submitted,
/s/John W. Dalton
John W. Dalton
122 Commerce Street
Montgomery, AL 36104
(334) 269-1803
jdalton@eji.org

